              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                           JUN 18 2012
Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up,
               Office of Financial Management

               Paula Hart
               Director, Office of Indian Gaming,
               Bureau of Indian Affairs

From:          Hannibal M. Ware       nJi
                                     t/C__
               Eastern Regional ~L._..._

Subject:       Verification Review of Recommendations from our Final Report, "Evaluation of
               BIA's Process to Approve Tribal Gaming Revenue Allocation Plans" (Report No.
               E-EV-BIA-0071-2002), June 2003
               Report No. ER-VS-BIA-0001-2012

        The U.S. Department of the Interior (DOl) Office oflnspector General (OIG) has
completed a verification review of the three recommendations presented in the subject evaluation
report. The objective of the verification was to determine whether the recommendations were
implemented by the Bureau of Indian Affairs (BIA) as reported to the Office of Financial
Management (PFM), Office of Policy, Management and Budget. PFM reported to OIG when
each of the three recommendations in the subject report had been addressed and provided
supporting documentation. As a result, two of the recommendations were reported as closed on
September 24, 2010, but not implemented, and, the third recommendation was implemented and
closed on April19, 2011.

        Based on our review, we agree that BIA's Office oflndian Gaming attempted to
implement the first two recommendations but did not succeed due to resistance from tribal
authorities and lack of enforcement capability. BIA concluded that it did not have the authority
to force tribes to submit the additional financial information that would have been required to
implement OIG's first two recommendations. OIG agrees that there is no express authority in
either applicable regulation or statute to require submittal of financial information from tribes to
obtain approval for gaming Revenue Allocation Plans (RAPs). DOl and BIA could have,
however, used their authority to deny RAPs to effectively compel requested financial
information from tribes.

        OIG acknowledges that BIA and PFM closed the first two recommendations and verified
that the third recommendation was satisfactorily implemented and closed.




                          Office of Audits, Inspections, and Evaluations   I Herndon, VA
Background

       The Indian Gaming Regulatory Act (IGRA) of 1988 requires the Secretary of the Interior
to approve adequate plans for allocating tribes’ net gaming revenues—especially with respect to
funding tribal government operations or programs and promoting tribal economic
development—in cases where tribes want to make per capita payments. In addition, 25 CFR §
290 12(b)(2) provides the following—

       [Information submitted for RAP approval] must contain detailed information to allow the
       ABO [Appropriate Bureau Official] to determine that [the tribe] complies with this
       section and IGRA particularly regarding funding for tribal governmental operations or
       programs and for promoting tribal economic development.

       The Indian Affairs Manual (IAM) § 47, “Indian Gaming,” chapter 3, “Tribal Revenue
Allocation Plan” (updated March 2011) explains the basic BIA standard for plan review and
approval:

       •   There must be a percentage breakdown of how all (100 percent) net gaming revenues
           will be allocated.
       •   If per capita distribution to tribal members is over 50 percent of the net gaming
           revenue, then the tribe must submit additional information.

         If the proposed per capita distribution to tribal members is more than 50 percent, BIA’s
Office of Indian Gaming asks for additional information such as the number of enrolled members
of the tribe, number of businesses owned and /or operated by the tribe, and the amount of
revenues generated by each business that is available to the tribe for economic development.

       Our June 2003 evaluation report, “Evaluation of BIA’s Process to Approve Tribal
Gaming Revenue Allocation Plans” contained three recommendations related to BIA’s process
and mandate to review and approve plans submitted by Indian tribes participating in gaming
operations. In appendix 5 of the report, OIG listed all three recommendations as “resolved; not
implemented.” OIG referred the recommendations to PFM for tracking of implementation.

         PFM and BIA closed the first two recommendations without implementation in a
September 24, 2010 memorandum to OIG. BIA reported that they consulted with various tribes
across the country and that these tribes were against implementing both recommendations OIG
suggested. PFM and BIA agreed that DOI did not have the authority to mandate tribes to accept
the changes. In an April 19, 2011 memorandum to OIG, PFM reported that BIA had
implemented and closed the third recommendation. PFM subsequently closed the evaluation
report .

Scope and Methodology

        We limited the scope of this review to obtaining and analyzing sufficient documentation
to evaluate BIA’s implementation of our recommendations. We reviewed the supporting
documentation that BIA officials provided to PFM and OIG to close the recommendations. We


                                                2
interviewed BIA officials about actions taken relating to each of the three recommendations and
independently verified implementation.

        We did not perform site visits or conduct fieldwork to determine whether the underlying
deficiencies that OIG initially identified have actually been corrected. As a result, we did not
conduct this review in accordance with the Generally Accepted Government Auditing Standards
issued by the Comptroller General of the United States or the Quality Standards for Inspections
of the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

        As of last year, PFM closed all three recommendations in OIG’s report, but BIA only
implemented one recommendation. BIA concurred with all three recommendations in the final
report issued in June 2003, but two recommendations depended on the outcome of consultations
with Indian tribes.

        The Office of Indian Gaming conducted 10 consultation sessions with American Indian
tribes between March 2006 and December 2008. BIA reported that the tribes disagreed with OIG
findings and opposed the recommended changes. PFM and BIA agreed that DOI did not have the
authority to force the tribes to accept the recommended changes or to enforce the
recommendations if enacted. OIG agrees that in 25 CFR § 290 and the Indian Gaming
Regulatory Act, no express authority exists to compel the tribes to produce the requested
information. We also recognize that DOI and BIA could interpret 25 CFR 290.12(b)(2) in a
manner implicitly requiring further financial information. Approval of an RAP is not a right;
BIA can require any additional information relevant to its approval process. The tribes can refuse
to submit the information, but BIA could also deny approval.

        In addressing OIG’s verification questions, BIA clarified its procedures with regards to
requesting information to evaluate RAP submittals in situations in which tribes want to make per
capita payments. PFM closed Recommendations 1 and 2. BIA satisfactorily implemented
Recommendation 3 as confirmed.

       Recommendation 1: Amend the applicable regulations to require tribes to submit
       sufficient financial information, modeled after the Michigan tribe, including: historical
       and projected tribal enrollment; gaming revenues; tribal budgets; historical and projected
       tribal services provided; other potential sources of tribal revenue; balances, earnings, and
       projected earnings from capital investment reserve accounts; and capacity of gaming
       operations and other related facilities.

        After reviewing the available documentation and speaking with the Director of Indian
Gaming and Deputy Director of Indian Gaming, we conclude that although BIA took appropriate
action to address OIG’s recommendation, the Office of Indian Gaming could not enlist the
necessary tribal support. In its September 23, 2010 memorandum to PFM addressing
Recommendations 1 and 2, BIA stated that the tribes—

       •   disagree with OIG findings and oppose the amendment of Federal regulations;


                                                3
       •   agree that there is not a Federal law that gives the Secretary of the Interior the
           authority to request such information; and
       •   believe that requiring the submittal of this information is contrary to the Federal
           policy of tribal self-governance and self-determination.

        As a result, PFM closed the recommendation without implementation. PFM stated that,
since the Secretary does not have the authority to force the tribes to submit the suggested
financial information, it closed this recommendation. According to the current Deputy Director,
the tribes also claimed that DOI did not have the authority to demand or protect tribal financial
information under the Freedom of Information Act (FOIA) process; BIA concurred. Based on
BIA’s decision, we consider this recommendation closed.

       Recommendation 2: Develop and publish a standard to determine what is “adequate”
       funding for each tribe’s government and economic development programs.

         PFM closed this recommendation using the same rationale for closing Recommendation
1. The tribes did not support the development or publishing of a standard as described by OIG,
and BIA has no authority to mandate that tribes adhere to the standards. BIA proposed
articulating a standard in an amendment to the existing Federal regulations and publishing it at
the same time as the proposed amendment under Recommendation 1, which would require the
tribes to submit sufficient financial information. This recommendation does not specify,
however, that a change in Federal regulations is required or intended. The Secretary has the
authority and legal responsibility to determine if the Indian tribes’ gaming RAPs reserve
adequate amounts of money to fund tribal government programs and economic development. If
the plans do not reserve adequate amounts of money, then DOI has the authority to deny them.
DOI also has the right to develop and publish its own standard that clarifies what financial
measures it will use to determine that tribes have adequate funding in their plans to cover the
tribes’ government and economic development programs.

        The Deputy Director evaluates the gaming requests and either approves or denies them
after reviewing all RAP submittals. According to the current Deputy Director, it is not possible
to develop a blanket standard describing adequate funding for each tribe’s government and
economic development program. Each tribe’s situation is unique and depends on many variables,
such as the number of tribal members and existing government and business infrastructure.

       After reviewing the available documentation and speaking with the Director and the
Deputy Director, we conclude that, although BIA took appropriate action in an effort to address
OIG’s recommendation, it was not able to enlist tribal support. As a result, PFM and BIA agreed
that DOI did not have the authority to force the tribes to accept or enforce a financial standard
imposed by DOI. We were told by the Deputy Director that she makes this decision on a case-
by-case basis, using information supplied by tribes. Based on PFM’s and BIA’s decision, we
consider this recommendation closed.

       Recommendation 3: Develop and produce written operating procedures for reviewing
       plans – including forms, surnames, documentation of tribal contacts, modifications to
       plans, and final disposition of plans.


                                                 4
       OIG’s report noted that BIA did not always document its deliberative process for
reviewing and approving tribal gaming plans. Furthermore, BIA did not have a tracking system
to document when a plan was received, reviewed, and approved, or when a tribe was contacted.

        We selected a small sample of recently submitted tribal gaming plans from the Office of
Indian Gaming’s logs. These logs represent BIA’s tracking system and include pertinent dates
such as plan submittal, review, approval, denial, and modification. We verified that the log data
matched the information submitted by tribes provided to the Office of Indian Gaming. IAM § 47,
“Indian Gaming,” chapter 3, “Tribal Revenue Allocation Plan” (updated March 2011) contains
written operating procedures for reviewing plans.

       After reviewing the available documentation, requesting additional information to
confirm and verify that BIA took appropriate actions, and speaking with the Director and Deputy
Director, we conclude that BIA satisfactorily implemented this recommendation prior to closure.

Conclusion

        We informed the Director and Deputy Director of the Office of Indian Gaming of the
results of this review at an exit conference on June 1, 2012. They agreed with the results of our
review.


cc:    Alexandra Lampros, Audit Liaison Officer, Office of the Secretary
       Michael Oliva, Audit Liaison Officer, Assistant Secretary – Indian Affairs




                                                 5
